Audit Report




OIG-06-010
BILL AND COIN MANUFACTURING: The Bureau of Engraving
and Printing Should Ensure That Its Currency Billing Rates
Include All Costs and That Excess Working Capital Is Deposited
in the General Fund
December 2, 2005




Office of
Inspector General
Department of the Treasury
Contents


Audit Report

  Results in Brief............................................................................................ 4

  Background ....................................................................... …………………… 6

  Findings and Recommendations…………………………………………………………… 9

      BEP’s Practice of Using Excess Working Capital to Reduce Currency
      Billing Rates Should Be Revisited .............................................................. 9
      Recommendations................................................................................... 13

      Full Cost of BEP’s Currency Operations Is Not Reflected In Billing Rates ........ 15
      Recommendation ................................................................................. 17

      Currency Billing Process Lacks Written Policies and Procedures
      and Documentation of Sufficient Internal Controls ...................................... 19
      Recommendations ................................................................................. 23


Appendices

  Appendix     1:      Objective, Scope, and Methodology ........................................            26
  Appendix     2:      Schedule of Revenue Enhancement .......................................               27
  Appendix     3:      Management Response .........................................................         28
  Appendix     4:      Report Distribution................................................................   31


Abbreviations

    BEP                Bureau of Engraving and Printing
    CFO                Associate Director (Chief Financial Officer)
    DOL                Department of Labor




                       BILL AND COIN MANUFACTURING: The Bureau of Engraving and                          Page 1
                       Printing Should Ensure That Its Currency Billing Rates Include All Costs
                       and That Excess Working Capital Is Deposited in the General Fund
                       (OIG-06-010)
Contents


Abbreviations (cont.)

    FASAB       Federal Accounting Standards Advisory Board
    FECA        Federal Employees’ Compensation Act
    FY          Fiscal Year
    GAAP        Generally Accepted Accounting Principles
    GAO         Government Accountability Office
    JAMES       Joint Audit Management Enterprise System
    OFM         Office of Financial Management
    OIG         Office of Inspector General
    OMB         Office of Management and Budget
    OPM         Office of Personnel Management
    U.S.C.      United States Code




                 BILL AND COIN MANUFACTURING: The Bureau of Engraving and                   Page 2
                 Printing Should Ensure That Its Currency Billing Rates Include All Costs
                 and That Excess Working Capital Is Deposited in the General Fund
                 (OIG-06-010)
                                                                                         Audit
OIG
The Department of the Treasury
                                                                                         Report
Office of Inspector General




                  December 2, 2005

                  Thomas A. Ferguson
                  Director
                  Bureau of Engraving and Printing

                  This report provides the results of our review of the Bureau of
                  Engraving and Printing’s (BEP) methodology for pricing currency.

                  BEP operations are financed by means of a revolving fund that is
                  reimbursed through product sales for direct and indirect costs of
                  operations, including administrative expenses. BEP is also
                  authorized to include in the prices charged for products an amount
                  sufficient to fund future capital investment and to meet working
                  capital requirements, thus eliminating the need for appropriations
                  from Congress.

                  The audit objective was to determine the adequacy of BEP’s pricing
                  methodology to (1) cover all costs of manufacturing products and
                  services performed, (2) provide for acquisition of capital equipment,
                  and (3) provide for working capital needs. Sales of currency to the
                  Federal Reserve System currently represent more than 90 percent
                  of BEP’s revenue, with sales of postage stamps to the U.S. Postal
                  Service representing the majority of the balance until June 2005,
                  when BEP stopped producing postage stamps. For this reason,
                  we focused our audit on the pricing of currency.

                  We performed our field work primarily from March 2004 to
                  July 2004 at BEP’s Headquarters in Washington, D.C.
                  We interviewed BEP personnel assigned to the Office of Financial
                  Management and evaluated financial reports, cost accounting
                  data, and budgetary information. During our review, we
                  considered BEP’s financial operations and pricing data for


                  BILL AND COIN MANUFACTURING: The Bureau of Engraving and                   Page 3
                  Printing Should Ensure That Its Currency Billing Rates Include All Costs
                  and That Excess Working Capital Is Deposited in the General Fund
                  (OIG-06-010)
               Fiscal Years (FY) 1998 through FY 2004. A more detailed
               description of our objective, scope, and methodology is included in
               Appendix 1.

Results in Brief
               BEP’s practice of using working excess capital to reduce currency
               billing rates should be revisited. BEP, instead of depositing excess
               working capital funds into the general fund of the Treasury, has
               used the excess to address planned decreases in revenue that
               resulted from intentional reductions in the currency billing rates and
               to issue refunds directly to the Federal Reserve. There was a
               general lack of explanation regarding the underlying rationale for
               this practice and the methodology used. We recommend that the
               BEP Director ensure that excess working capital is returned to the
               Treasury general fund directly by BEP and enhance the discussion
               in BEP’s annual Chief Financial Officer Performance and
               Accountability Report (CFO-PAR) to include BEP management’s
               rationale and methodology for setting its currency prices.

               The full cost of BEP’s currency operations is not reflected in the
               currency billing rates. The rates did not include post-retirement
               benefit costs paid by the Office of Personnel Management (OPM),
               which were paid through appropriated funds and amounted to
               $9.8 million for FY 2004. We recommend that currency billing
               rates consider the full cost of operations, including imputed costs,
               such as those for employee benefits paid by OPM. To the extent
               the currency rates result in excess monies to the BEP revolving
               fund, these should be deposited as miscellaneous receipts to the
               Treasury general fund.

               BEP’s currency billing process lacks written policies and procedures
               as well as documentation of sufficient internal controls over the
               establishment of billing rates, and the funding of capital projects in
               the calculation of working capital. BEP management has not
               developed written policies and procedures regarding how these
               responsibilities are to be implemented, documented, or reviewed.


               BILL AND COIN MANUFACTURING: The Bureau of Engraving and                   Page 4
               Printing Should Ensure That Its Currency Billing Rates Include All Costs
               and That Excess Working Capital Is Deposited in the General Fund
               (OIG-06-010)
We recommend the issuance of policies and procedures to
document the process for determining currency billing rates.
We also recommend that the BEP Director require that the CFO
document that excess working capital funds earmarked to reduce
actual currency billing rates are not needed to fund current and
future capital projects. In addition, we recommend that the BEP
Director and the CFO document that they are satisfied that the
excess funds are not needed to address BEP’s capital needs.

In its response to our draft report, BEP management stated that
it would continue its practice to reduce currency rates for excess
working capital instead of returning the excess directly to the
Treasury general fund. While we continue to believe that our
recommendation would improve the overall transparency of BEP’s
financial operations, we consider the recommendation to have
a management decision. BEP management also did not concur
with our recommendation to include post-retirement benefit costs
paid by OPM as part of the billing rate. As discussed in the
Findings and Recommendations section of this report, we believe
the recommendation should be implemented. Accordingly,
this disagreed recommendation will need to be referred to
the Department for resolution in accordance with Treasury
Directive 40-03, Treasury Audit Resolution, Follow-Up, and
Closure.

BEP management concurred with our other recommendations. The
text of the management response is included as Appendix 3.




BILL AND COIN MANUFACTURING: The Bureau of Engraving and                   Page 5
Printing Should Ensure That Its Currency Billing Rates Include All Costs
and That Excess Working Capital Is Deposited in the General Fund
(OIG-06-010)
Background
             Mission

             BEP’s mission is to design and manufacture high quality security
             documents that meet customer requirements for quality, quantity,
             and performance, including counterfeit deterrence. BEP operates
             under the general authority conferred upon the Secretary of the
             Treasury by 31 U.S.C. 321(a)(4) to engrave and print currency and
             other security documents.

             Financial Operations

             BEP operations are financed by means of a revolving fund
             established in 1950 in accordance with Public Law 81-656.
             This fund is reimbursed through product sales for direct and
             indirect costs of operations, including administrative expenses.
             In Treasury Order 135-05, Delegation to Director, Bureau of
             Engraving and Printing Over Prices for Their Work and to Determine
             Fair Value of Capitalization of Inventories, dated July 2, 1951,
             the Secretary of the Treasury delegated to the BEP Director the
             authority to determine prices charged for work or services by BEP,
             and to determine fair and reasonable values for the capitalization of
             inventories and other physical assets.

             Public Law 95-81, July 31, 1977, [31 U.S.C. 5142(c)(3)],
             authorized the establishment of reimbursement prices from
             customer agencies at a level intended to provide funding for the
             acquisition of capital equipment and future working capital.

             The Comptroller General Decision B-114801, dated February 12,
             1980, stated that if amounts withheld for working capital and
             acquisition of capital equipment by BEP were considered excessive,
             the excess funds should paid into miscellaneous receipts in the
             general fund. However, the decision noted that the Government
             Accountability Office (GAO) could not require BEP to deposit such
             amounts into miscellaneous receipts since there was no legal
             requirement as to the amounts needed for capital purposes.

             BILL AND COIN MANUFACTURING: The Bureau of Engraving and                   Page 6
             Printing Should Ensure That Its Currency Billing Rates Include All Costs
             and That Excess Working Capital Is Deposited in the General Fund
             (OIG-06-010)
Major Components of the Currency Billing Rates

BEP determines the billing rates to be charged for the currency it
produces and supplies to the Federal Reserve based on three major
components. The first component includes estimated direct and
indirect costs, including administrative expenses, for the production
the currency. These estimates are prepared by the Cost Analysis
and Pricing Division, and reviewed by the Chief, Office of Financial
Management (OFM).

The second component is the estimated cash outlays required for
approved capital projects. These cash outlays are related to capital
projects that were subjected to a comprehensive BEP approval
process and were selected for funding by the capital investment
review board.

The final component is the amount required to maintain
a reasonable amount of working capital needed to ensure
the financial integrity of the revolving fund. The amount is
determined by the Chief (OFM) and approved by the CFO.

BEP calculates a separate billing rate for each currency type.
For the newly-designed series, which to date involves the
$20 and $50 denominations, additional billing rates are determined.
BEP then computes an average billing rate based upon its estimates
of the total number of notes for each currency denomination and
series to be manufactured in the coming year.

Accounting Policies

Revenue is generated from the sale of currency to the Federal
Reserve System and is recognized when finished goods are
delivered to the respective onsite depository vaults. All currency
is transferred to the Federal Reserve depository immediately upon
completion.




BILL AND COIN MANUFACTURING: The Bureau of Engraving and                   Page 7
Printing Should Ensure That Its Currency Billing Rates Include All Costs
and That Excess Working Capital Is Deposited in the General Fund
(OIG-06-010)
Property and equipment are recorded at cost. Depreciation of
property and equipment is calculated using the straight-line
method. Currently, BEP’s annual depreciation expense is
approximately $40 million and is factored into the computation of
the currency billing rates.

The annual depreciation expense that BEP is reimbursed through
its billings is used to fund its capital acquisitions. Funds not
required to meet current and future capital needs become part of
BEP’s working capital.

BEP has historically prepared annual financial statements in
conformity with generally accepted accounting principles based on
accounting standards issued by the Financial Accounting Standards
Board, the private-sector standards-setting body. BEP has received
an unqualified audit opinion on its financial statements from an
independent public accounting firm for the past 19 years. During
the period FY 2001 through FY 2003, an independent public
accountant, under Office of Inspector General supervision, rendered
unqualified opinions on the annual financial statements. These
audits did not identify any matters involving internal control over
financial reporting and BEP operations that were considered to be
material weaknesses, or any instances of noncompliance with laws
and regulations that were required to be reported.




BILL AND COIN MANUFACTURING: The Bureau of Engraving and                   Page 8
Printing Should Ensure That Its Currency Billing Rates Include All Costs
and That Excess Working Capital Is Deposited in the General Fund
(OIG-06-010)
Findings and Recommendations

Finding 1              BEP’s Practice of Using Excess Working Capital to
                       Reduce Currency Billing Rates Should Be Revisited

                       Our review noted that BEP, due to increases in cost savings,
                       increased productivity, and limited capital expenditures, was
                       continuing to accumulate excess working capital. Rather than
                       return the excess as a miscellaneous receipt to the general fund of
                       the Treasury, BEP used it to address planned decreases in revenue
                       that resulted from intentional reductions in the currency billing
                       rates and to issue refunds directly to the Federal Reserve.

                       According to BEP management, the excess working capital
                       is ultimately returned to the general fund through the Federal
                       Reserve.1 This practice, while not expressly prohibited, is an
                       indirect method for returning the funds to the Treasury, and we
                       believe the practice should be revisited by management to improve
                       the transparency of BEP financial operations.

                       A common feature of most Federal government revolving funds
                       is that they are intended to operate on a break-even basis or
                       reasonably close to it, at least over the long term. One thing this
                       means is that the fund should not augment its working capital by
                       retaining excess profits.




1
  Federal Reserve Banks are required by the Board of Governors of the Federal Reserve System to
transfer to the Treasury excess earnings, after providing for their cost of operations, payment of
dividends, and reservation of an amount necessary to equate surplus with capital paid in. In the event
of losses, or a substantial increase in capital, a Federal Reserve Bank will suspend its payments to the
Treasury until such losses or increases in capital are recovered through subsequent earnings. The
Financial Management Service records earnings deposited by the Federal Reserve as non-entity custodial
revenue. For fiscal year 2004, these custodial earnings totaled nearly $19.7 billion.



                       BILL AND COIN MANUFACTURING: The Bureau of Engraving and                   Page 9
                       Printing Should Ensure That Its Currency Billing Rates Include All Costs
                       and That Excess Working Capital Is Deposited in the General Fund
                       (OIG-06-010)
In this regards, revolving fund statutes frequently include the
requirement for the periodic payment of surplus amounts to the
general fund of the Treasury. With respect to the BEP revolving
fund, 31.U.S.C. 5142(d) requires that:

   The Secretary shall deposit each fiscal year, in the Treasury
   as miscellaneous receipts, amounts accruing to the Fund in
   the prior fiscal year that the Secretary decides are in excess
   of the needs of the Fund. However, the Secretary may use
   the excess amounts to restore capital of the Fund reduced
   by the difference between charges for services of the Bureau
   and the cost of providing those services.

Under this statute and related Treasury Orders and Directives,
BEP has wide discretion in setting charges for its services, and
determining excess funds requiring deposit into the Treasury as
miscellaneous receipts.

For the period FY 2001 through FY 2003, BEP reported in its
audited financial statements an excess of expenses over revenue
in the amounts of $44.7 million, $29 million, and $12.1 million,
respectively. BEP disclosed in its FY 2001 statements that the
$44.7 million shortfall was due to a mid-year reduction in the
Federal Reserve currency order, which BEP covered with excess
working capital funds. However, for FY 2002 and FY 2003, the
excess of expenses over revenues was intentionally planned by
BEP in order to avoid increasing its working capital. Instead of
billing the Federal Reserve for all costs associated with the
production of currency, BEP reduced the billing rates and used its
excess working capital funds to cover the planned losses.




BILL AND COIN MANUFACTURING: The Bureau of Engraving and                   Page 10
Printing Should Ensure That Its Currency Billing Rates Include All Costs
and That Excess Working Capital Is Deposited in the General Fund
(OIG-06-010)
A comparison of BEP’s estimated costs for FY 2002 through
FY 2004 and the effect of using excess working capital to reduce
the annual billing rates are contained in the following table.

Table 1. Computation of Average Currency Billing Rates

 Components of Billing Rates                       FY 2002          FY 2003         FY 2004
 Manufacturing Costs                                 $26.40           $31.00          $29.84
 Prepress/Engraving                                    1.34             1.29            1.16
 Manufacturing Support                                20.39            19.37           18.60
 Research and Development                              1.31             1.81            0.96
 General and Administrative                            5.48             5.36            5.48
 Public Education Ad Campaign                                           2.45            2.23
 Total Costs (Per 1,000 Bills)                        $54.92           $61.28           $58.27
 Working Capital/Capital Investment
    (Amount of Working Capital Applied
     To Reduce Billing Rates)                          (4.18)           (3.03)           (2.25)
 Billing Rate (Per 1,000 Bills)                       $50.74           $58.25           $56.02
Note: The manufacturing costs include paper, ink, direct labor, and variable and fixed overhead.


In addition to using excess working capital to reduce its billing
rates, BEP also has issued refunds directly to the Federal Reserve.
In FY 1997, for example, BEP refunded $25 million that was
assessed and earmarked for capital acquisitions that were
subsequently cancelled. Another refund occurred in FY 2003 and
involved $6.25 million resulting from savings from lower than
anticipated spoilage costs associated with production of the new
currency.

We also noted that while the operating losses were reported in
BEP’s annual financial statements, there was a general lack of
explanation by BEP regarding the underlying rationale for the
practice and methodology used. For example, for FY 2003,
BEP discussed its planned loss in its CFO-PAR as follows. The
introductory message from the CFO stated that the excess of
expenses over revenue was planned and funded out of working




BILL AND COIN MANUFACTURING: The Bureau of Engraving and                                    Page 11
Printing Should Ensure That Its Currency Billing Rates Include All Costs
and That Excess Working Capital Is Deposited in the General Fund
(OIG-06-010)
capital. The Management Discussion and Analysis (MD&A)
included the following:

   The net operating loss for the year was within planned
   parameters. Funding for the Bureau remains adequate since
   depreciation, a non-cash expense, offset capital investment
   and the planned operating loss in 2003.

The Statement of Operations (unaudited) noted that the net
operating loss for the year, while within planned parameters, was
less than anticipated….

There was no further explanation given by BEP in its CFO-PAR.

BEP personnel stated that the general fund does ultimately benefit
from BEP’s use of excess working capital to reduce the Federal
Reserve’s costs. The reduction in the billing rates results in lower
costs to the Federal Reserve. The resulting savings to the Federal
Reserve are invested by the Federal Reserve, according to BEP
personnel, and the savings plus interest earned are subsequently
deposited into the general fund by the Federal Reserve.

While this may be true, this is an indirect method for returning
BEP’s excess working capital funds to the Treasury general fund
compared to BEP depositing the excess funds directly as
miscellaneous receipts, which we believe would provide greater
transparency in BEP’s financial operations. During our audit, BEP
management could not provide a compelling reason for the
practice. One reason cited by management, however, was that
lower currency rates enabled the Federal Reserve to return more of
its earnings to the Treasury.




BILL AND COIN MANUFACTURING: The Bureau of Engraving and                   Page 12
Printing Should Ensure That Its Currency Billing Rates Include All Costs
and That Excess Working Capital Is Deposited in the General Fund
(OIG-06-010)
Recommendations

1. The BEP Director should, to improve transparency in BEP
   financial operations and reporting, and absent a compelling
   reason for its current practice, ensure that excess working
   capital is returned to the Treasury general fund directly by BEP.

   Management Comments

   In its response, BEP stated that, in setting prices, BEP projects
   both capital and operating expenses and allocates them to
   products. BEP reserves the right to adjust prices upward if
   actual expenses exceed planned expenses. Conversely, when
   capital and/or operating expenses are less than anticipated, this
   money is returned to the customer through a pricing adjustment
   or retained if needed for future requirements.

   While BEP has the authority to retroactively classify such funds
   as reserved for future capital expenditures, its preference has
   been to return them to the Federal Reserve. This is because
   future years' depreciation expense can be used to fund planned
   capital investment, and the Federal Reserve can put the funds
   to better use in the short term because they have investment
   authority, which BEP lacks. In addition, the Federal Reserve
   transfers its surplus to Treasury weekly, which provides the
   funds to Treasury sooner than an annual reimbursement from
   BEP would. Based on this, BEP does not intend to take action
   on this recommendation.

   OIG Response

   We consider the recommended approach preferable because it
   would improve transparency in BEP financial operations and
   reporting. However, we consider the recommendation to have
   a management decision.

   We would like to point out that we do not agree with BEP’s
   comments regarding the timing of transfers to the Treasury
   general fund. BEP uses the amount of excess working capital

BILL AND COIN MANUFACTURING: The Bureau of Engraving and                   Page 13
Printing Should Ensure That Its Currency Billing Rates Include All Costs
and That Excess Working Capital Is Deposited in the General Fund
(OIG-06-010)
   funds as of the end of the year to compute currency billing
   rates for the following year. Immediate deposit of excess funds
   at year-end would result in earlier receipt by Treasury than the
   current periodic transfer by the Federal Reserve of currency
   billing rate savings over the following year.

2. The BEP Director should enhance the discussion in its annual
   Chief Financial Officer Performance and Accountability Report
   to include BEP management’s rationale and methodology for
   setting its currency prices.

   Management Comments

   BEP concurs with this recommendation. Additional discussion
   related to the pricing methodology will be added to BEP's future
   Chief Financial Officer Performance and Accountability Reports.

   OIG Response

   The OIG believes that the actions taken or planned by BEP
   address the intent of the recommendation.




BILL AND COIN MANUFACTURING: The Bureau of Engraving and                   Page 14
Printing Should Ensure That Its Currency Billing Rates Include All Costs
and That Excess Working Capital Is Deposited in the General Fund
(OIG-06-010)
Finding 2               Full Cost of BEP’s Currency Operations Is Not Reflected
                        In Billing Rates

                        BEP did not include certain employee benefit costs paid by the
                        OPM in establishing its currency billing rates. As allowed by
                        current accounting principles for the Federal government, such
                        costs were not recorded on BEP’s financial statements and
                        therefore were not reflected in BEP’s reported operating losses
                        during our audit period. However, BEP does disclose these costs in
                        the notes to its financial statements. For example, it reported that
                        the amounts paid by OPM for post-retirement benefits (health care
                        costs and life insurance) through appropriated funds for FY 2004
                        and FY 2003 were $9.8 million and $8.5 million, respectively. In
                        effect, appropriated funds are being used to subsidize the cost of
                        currency sold to the Federal Reserve.2

                        Office of Management and Budget (OMB) Circular A-25, User
                        Charges, establishes Federal policy regarding fees assessed for the
                        sale or use of Government goods or resources. Circular A-25 (see
                        Section 6.d.1) defines full cost as including all direct and indirect
                        costs to any part of the Federal Government of providing a good,
                        resource, or service. These costs include, but are not limited to,
                        an appropriate share of direct and indirect personnel costs,
                        including salaries and fringe benefits such as medical insurance and
                        retirement. Retirement costs should include all (funded or
                        unfunded) accrued costs not covered by employee contributions as
                        specified in OMB Circular A-11.

                        As an observation, our office reported in connection with the
                        annual audit of the Department of the Treasury’s consolidated
                        financial statements that certain Treasury components, including
                        BEP, continue to report their financial results in conformity with
                        private-sector accounting principles instead of generally accepted

 2
   If BEP were to include the cost of employee benefits paid by OPM as part of its currency billing rates,
 the amounts collected from the Federal Reserve would become excess monies to the BEP revolving fund
 available for deposit as miscellaneous receipts into the Treasury general fund.


                        BILL AND COIN MANUFACTURING: The Bureau of Engraving and                   Page 15
                        Printing Should Ensure That Its Currency Billing Rates Include All Costs
                        and That Excess Working Capital Is Deposited in the General Fund
                        (OIG-06-010)
                      accounting principles (Federal GAAP) prescribed by the Federal
                      Accounting Standards Advisory Board (FASAB), the accounting
                      standards-setting body for the Federal Government.3 In this regard,
                      FASAB allows the continued use of private-sector accounting
                      standards by Federal agency component reporting entities if those
                      entities first began issuing financial statements before
                      October 1999.

                      Among other things, when compared to Federal GAAP, the use of
                      private sector accounting principles can result in inconsistencies in
                      how certain costs are reported. For example, Federal GAAP
                      requires that non-reimbursed costs paid by the OPM for retirement
                      plans and post-retirement benefits be recognized by the receiving
                      entity as an “imputed cost” in order to report the full cost of
                      operations. Since private sector accounting principles do not
                      provide guidance for the reporting of imputed costs, they are not
                      reported, or are reported inconsistently, by the Treasury
                      components.

                      As a further observation, Public Law 108-458, the Intelligence
                      Reform and Terrorism Prevention Act of 2004, grants the Secretary
                      of the Treasury the authority to produce currency, postage stamps,
                      and other security documents for foreign governments. Adopting a
                      billing methodology that fully reflects and consistently reports
                      operating costs, such as would occur under Federal GAAP, would,
                      in our opinion, facilitate the BEP billing process for all entities in the
                      future.

                      Absent a specific statutory requirement, we believe that the
                      continued use of private sector accounting principles instead of
                      Federal GAAP by these Treasury components, including BEP,
                      decreases the usefulness of information reported by these entities
                      for users of Federal financial statements. This issue is currently
                      under review by the Department.

3
 Management Letter for Fiscal Year 2004 Audit of the Department of the Treasury’s Financial
Statements (OIG-05-017, issued December 14, 2004).



                      BILL AND COIN MANUFACTURING: The Bureau of Engraving and                   Page 16
                      Printing Should Ensure That Its Currency Billing Rates Include All Costs
                      and That Excess Working Capital Is Deposited in the General Fund
                      (OIG-06-010)
Recommendation

3. The BEP Director should ensure that currency billing rates
   consider the full cost of operations, including imputed costs
   such as the imputed cost of employee benefits paid by OPM.
   To the extent the currency rates result in excess monies to the
   BEP revolving fund, they should be deposited as miscellaneous
   receipts to the Treasury general fund.

   Management Comments

   BEP does not concur with this recommendation. BEP believes
   that the issue regarding charging for imputed costs for post-
   retirement benefits is government-wide and is best addressed
   by the Office of Management and Budget or the government-
   wide CFO Council. BEP has not been able to identify any entity
   or fund that is including such costs in its billing rates. This may
   be due to the fact that Federal Accounting Standards provide
   for the recognition of imputed revenue as a financing source to
   offset the imputed costs. As a result, these imputed costs are
   non-cash expenses to the entities, financing is provided
   (imputed), and there is no charge or cost to reimburse. In
   addition, BEP stated that charging these costs to the Federal
   Reserve will not result in any increase in funding to Treasury.
   Because the Federal Reserve provides weekly cash transfers to
   Treasury, having BEP charge for these costs would only serve
   to lessen this weekly reimbursement and replace them with an
   annual reimbursement from BEP.

   While these imputed costs are being allocated to entities across
   the government, there is no traceability for the cost allocation
   or any charge-back. That is, the costs being allocated for post-
   retirement benefits to BEP are not traceable to any BEP retiree
   or any service provided to BEP. This has been an issue at the
   U.S. Postal Service that the Government Accountability Office
   has been unable to satisfactorily resolve for more than a
   decade. BEP believes that post-retirement expenses should be
   traceable and, once traceable, charged to the responsible entity
   and reimbursed.


BILL AND COIN MANUFACTURING: The Bureau of Engraving and                   Page 17
Printing Should Ensure That Its Currency Billing Rates Include All Costs
and That Excess Working Capital Is Deposited in the General Fund
(OIG-06-010)
   Also, it is BEP’s position that including these post-retirement
   costs in BEP's billing rates will not in any manner impact the
   funding situation for these costs/liabilities if such reimbursement
   is classified as a miscellaneous receipt to Treasury. If any
   reimbursement were made for these costs it should go to the
   paying office, the Office of Personnel Management, and their
   appropriation reduced accordingly. Further, in BEP’s opinion,
   the use of imputed costs and revenues does not improve the
   financial statement presentation. Based on the foregoing, BEP
   does not intend to take further action on this recommendation.

   OIG Response

   We believe the recommendation should be implemented. These
   post-retirement benefits are costs incurred by the Federal
   government, and should therefore be factored into the billing
   rates. We have considered the traceability issue mentioned
   by BEP, including the related issues between GAO and the
   U.S. Postal Service, an independent establishment of the
   Executive Branch of the Federal government. We do not believe
   that these arguments are relevant to our recommendation to a
   Bureau of the Treasury Department.

   In addition, we believe that existing policy, particularly OMB
   Circular A-25, adequately addresses the requirements to include
   indirect costs in billing rates. In our opinion, reflecting the full
   cost of BEP’s currency operations in the billing rates is further
   made necessary with the granting of authority to produce
   security products for foreign governments. As mentioned, the
   matter of whether entities such as BEP should report under
   Federal GAAP is under review by the Department.

   For these reasons, this disagreed recommendation will need to
   be referred to the Department for resolution in accordance with
   Treasury Directive 40-03, Treasury Audit Resolution, Follow-Up,
   and Closure.




BILL AND COIN MANUFACTURING: The Bureau of Engraving and                   Page 18
Printing Should Ensure That Its Currency Billing Rates Include All Costs
and That Excess Working Capital Is Deposited in the General Fund
(OIG-06-010)
Finding 3   Currency Billing Process Lacks Written Policies and
            Procedures and Documentation of Sufficient Internal
            Controls

            BEP’s currency billing process lacks written policies and procedures
            as well as documentation of sufficient internal controls over the
            establishment of billing rates, and the funding of capital projects in
            the calculation of working capital. BEP management has not
            developed written policies and procedures regarding how these
            responsibilities are to be implemented, documented, or reviewed.
            As a result, there is a lack of evidence that BEP is ensuring that
            these responsibilities are being properly executed and are subject to
            management oversight.

            Billing Process Lacks Written Documentation

            Our review of the three components that make up BEP’s currency
            billing rates determined that the process lacks formal policies and
            procedures and evidence of management review. As a result,
            BEP’s currency billing rates and its determination of excess working
            capital is difficult to evaluate and verify.

            The Chief (OFM) does not maintain documentation or files
            regarding his responsibilities for reviewing estimated costs and
            expenses in manufacturing the currency, determining the amount
            of funds needed to meet capital acquisition needs, and calculating
            working capital levels and determining excess working capital.

            According to the Chief (OFM), all decisions regarding the
            components of the proposed currency billing rates, including the
            amount factored in to reduce the level of working capital, are
            subject to review and approval by the CFO. However, there is
            no documentation being maintained that provides evidence that the
            CFO reviewed and approved the basis for determining the currency
            billing rates.




            BILL AND COIN MANUFACTURING: The Bureau of Engraving and                   Page 19
            Printing Should Ensure That Its Currency Billing Rates Include All Costs
            and That Excess Working Capital Is Deposited in the General Fund
            (OIG-06-010)
We believe that BEP’s current process regarding the setting of
billing rates carries with it a certain amount of risk. BEP’s
oversight is based almost entirely on the experience and judgment
of the Chief (OFM) and the CFO. While we found that these
officials to have a good understanding of their responsibilities,
we believe that operating in this manner increases the risk to BEP.
At a future date, for example, another individual could assume the
position of Chief (OFM), and he or she may have difficulty in
determining his or her role as it relates to establishing valid and
reliable billing rates.

A major component of effective program management is good
internal control. According to the Standards for Internal Control in
the Federal Government, internal control comprises the plans,
methods, and procedures used to meet missions, goals, and
objectives of a program. According to this GAO publication,
control activities include approvals, authorizations, verifications,
and the creation and maintenance of related records, which provide
evidence of execution of these activities. Internal controls,
transactions, and significant events need to be clearly documented
and available for examination and confirmation. The
documentation should appear in administrative policies and
operating manuals.

The lack of written policies, the lack of supporting documentation,
and the absence of documentation pertaining to supervisory review
and approval may all undermine effective program management.
These internal control deficiencies require immediate attention by
BEP management.

Excess Working Capital Needs Justification

BEP lacks sufficient evidence that its excess working capital
amounts are valid and reliable. BEP does not have written policies
and procedures regarding the process of determining excess
working capital. As a result, we were unable to determine whether
BEP is including sufficient funds in its billing rates to address
current and future capital needs.

BILL AND COIN MANUFACTURING: The Bureau of Engraving and                   Page 20
Printing Should Ensure That Its Currency Billing Rates Include All Costs
and That Excess Working Capital Is Deposited in the General Fund
(OIG-06-010)
One of the primary objectives of our review was to determine
whether BEP was including in its currency billing rates an amount
sufficient to cover the costs of current and future capital
investments. We determined that during the period FY 2003
through FY 2004, BEP had excluded approximately $41 million in
surplus funds from the billing rates that it assessed the Federal
Reserve to avoid accumulating excess working capital. During
FY 1997 and FY 2003, BEP had also directly refunded a total of
an additional $31 million to the Federal Reserve as a result of
operating efficiencies. BEP personnel had decided these excess
funds were not needed to meet BEP’s current or future capital
acquisition needs.

The amount of money that BEP needs to fund approved current and
future capital projects directly impacts the balance of working
capital. Therefore, BEP needs to ensure that its capital
requirements are being met when determining its billing rates and
before identifying its excess working capital funds.

Lack of Written Documentation in Determining Excess Working
Capital

When we requested copies of the policies and procedures
pertaining to determining the amount of excess working capital,
we were told that these did not exist. In addition, BEP had not
implemented a formal process documenting how working capital
requirements are determined. Also, there was no documentation
available to support that the decisions were subject to supervisory
review and approval. The decision process involved primarily
verbal discussions.

The CFO and the Chief (OFM) review all projects that have been or
may be obligated in the next year. The obligated funds from
previous years are combined with the funds to be obligated during
the new fiscal year. The total projected capital project outlays are
then included in the billing rates.




BILL AND COIN MANUFACTURING: The Bureau of Engraving and                   Page 21
Printing Should Ensure That Its Currency Billing Rates Include All Costs
and That Excess Working Capital Is Deposited in the General Fund
(OIG-06-010)
The Chief (OFM) explained that funds had not been obligated for
certain projects because processing delays, lack of resources, and
“pipeline” problems prevent BEP from obligating funds for all
approved capital projects. As a result, the Chief (OFM) and the
CFO focus on those projects that they feel require funds to be
obligated in the coming year. Projects that are not selected will
have funds obligated in subsequent years. The Chief (OFM) did not
want to obligate funds for capital projects that BEP would not be
implementing in the near future. He felt that BEP’s current
approach was sufficient, because the projects that had the highest
priorities were being addressed, while lower priority projects could
be delayed until a later date when resources and circumstances
would enable BEP to implement those projects.

As part of our review of capital projects, we identified six projects
that had been approved for approximately $5.7 million. However,
these projects were not being funded. According to BEP personnel,
the funding for these projects had been put on hold pending the
results of a Treasury-contracted review of the possible merging of
BEP with the U.S. Mint.

According to the CFO and the Chief (OFM), BEP has historically
been very conservative in approving and expending funds to
replace capital equipment. BEP requires all proposed capital
projects be subject to a comprehensive and lengthy capital
review and approval process. This process helps ensure that
managers will only submit capital projects that show a positive
return on investment or are necessary for security or safety.
BEP management personnel acknowledged that the more rigorous
process resulted in a 50 percent reduction in the number of
business cases being submitted for review and approval.

The CFO stated that the Bureau traditionally prefers to repair
its older capital equipment whenever possible rather than invest
in new equipment. In addition, the CFO stated that he would like
to be able, sometime in the future, to implement a systematic
plan for replacing BEP’s capital goods on a predetermined cycle.


BILL AND COIN MANUFACTURING: The Bureau of Engraving and                   Page 22
Printing Should Ensure That Its Currency Billing Rates Include All Costs
and That Excess Working Capital Is Deposited in the General Fund
(OIG-06-010)
However, given BEP’s conservative approach regarding capital
acquisitions, the CFO felt that it was unlikely that such a plan
would be implemented.

BEP often consults the Federal Reserve when considering making
major capital improvements or expenditures. We acknowledge that
the Federal Reserve should be consulted on such matters since
costs associated with capital acquisitions will ultimately be paid by
the Federal Reserve. However, an increase in the funding of
capital improvements also increases the currency billing rates.
As a result, BEP is faced with the dilemma of trying to ensure that
its capital needs are being addressed while at the same time trying
to achieve customer satisfaction by reducing the billing rates.

BEP needs to develop procedures that document the working
capital reduction that is reflected in the currency billing rates.
The procedures should document that a thorough review of all
capital needs has been conducted, current and future capital needs
have been identified, and all approved projects have either been
funded or an explanation provided why funding was not provided.
Before BEP identifies and transfers the excess funds, the BEP
Director and the CFO should certify that they are satisfied that the
excess funds are not needed to address BEP’s capital needs.

Recommendations

4. The Director should require that policies and procedures
   be written and implemented that document the process for
   determining currency billing rates. These should outline the
   process by which BEP determines how each component of the
   billing rates is determined. The policies and procedures should
   also require evidence that the process and its results were
   properly documented, reviewed, and approved by BEP
   management.




BILL AND COIN MANUFACTURING: The Bureau of Engraving and                   Page 23
Printing Should Ensure That Its Currency Billing Rates Include All Costs
and That Excess Working Capital Is Deposited in the General Fund
(OIG-06-010)
   Management Comments

   BEP concurs and will document existing policies and procedures
   used to determine currency billing rates. Plans are to have the
   policies and procedures prepared by June 2006.

   OIG Response

   The OIG believes that the actions taken or planned by BEP
   address the intent of the recommendation.

5. The Director should require the CFO to document that excess
   working capital funds earmarked to reduce currency billing rates
   are not needed to fund current and future capital projects. In
   addition, the BEP Director and the CFO should document that
   they are satisfied that the excess funds are not needed to
   address BEP’s capital needs.

   Management Comments

   BEP will continue to review and revise billing rates annually as
   needed to maintain working capital and provide for capital
   investment. Billing rates for currency, which are revised each
   calendar year, will be completed and approved by the Director
   by December 1st.

   OIG Response

   The OIG believes that the actions taken or planned by BEP
   address the intent of the recommendation.

                                  *******

Please be advised that we are recording a revenue enhancement
of $29.4 million relating to the recommendation in Finding 2
in the Joint Audit Management Enterprise System (JAMES).



BILL AND COIN MANUFACTURING: The Bureau of Engraving and                   Page 24
Printing Should Ensure That Its Currency Billing Rates Include All Costs
and That Excess Working Capital Is Deposited in the General Fund
(OIG-06-010)
Appendix 1
Objective, Scope, and Methodology




The audit objective was to determine the adequacy of BEP’s
pricing methodology to (1) cover all costs of manufacturing
products and services performed, (2) provide for acquisition of
capital equipment, and (3) provide for working capital needs.
In general, we considered BEP’s financial operations and pricing
data for FY 1998 through FY 2004.

We reviewed the pertinent provisions of Public Law 81-656 and
Public Law 95-81. We visited BEP Headquarters and interviewed
the Chief (OFM) and members of his staff. We also spoke with the
CFO about capital acquisition policies, and with the Federal
Reserve’s liaison at BEP regarding the role of his organization in the
currency billing process.

We reviewed and analyzed cost data provided by BEP personnel to
ensure that all direct and indirect costs as well as administrative
expenses were included in determining currency billing rates.
We evaluated the basis upon which BEP established the amount of
working capital required to meet its financial obligations and
responsibilities. We also evaluated BEP’s procedures regarding the
submission, approval, and funding of capital projects.

We analyzed monthly cash balances for the period October 2001
through February 2004, and reviewed current and long-term
liabilities as presented on the audited annual financial statements.
We sampled various components of cost data, and confirmed that
the costing data and procedures reviewed conformed to BEP’s
Financial Management Policy Manual. We also reviewed
summaries and audit step results, dealing with verification of costs,
which were prepared by independent auditors.

We conducted our audit between March 2004 and July 2004
in accordance with generally accepted government auditing
standards.




BILL AND COIN MANUFACTURING: The Bureau of Engraving and                   Page 26
Printing Should Ensure That Its Currency Billing Rates Include All Costs
and That Excess Working Capital Is Deposited in the General Fund
(OIG-06-010)
Appendix 2
Schedule of Revenue Enhancement




The term revenue enhancement is an action recommended in
an OIG audit report that would, if implemented, enhance the
General Fund receipts of the Federal Government, usually without
having any budgetary impact on any of the Department of the
Treasury's appropriations. The implementation of the following
recommendation in this report involves a revenue enhancement.
The related amount, as shown in the table below, will be recorded
in JAMES and included in the statistical reporting in the next OIG
Semiannual Report to the Congress.

        Table 2. Computation of Revenue Enhancement


         Recommendation Number                     Revenue Enhancement


     Finding 2 – Recommendation 3                        $ 29.4 million

         Total:                                          $ 29.4 million


The funds associated with Recommendation 3 represent an
estimate of the amount that may be paid by OPM for
post-retirement benefits for 3 years. The estimated amount
is based on an assumption that the benefits paid by OPM will
at least equal the $9.8 million that OPM paid for FY 2004, and
is computed by multiplying the $9.8 million by three.

It is management's responsibility to record the actual monetary
benefits realized as a result of its implementation of the
recommendation in JAMES.




BILL AND COIN MANUFACTURING: The Bureau of Engraving and                   Page 27
Printing Should Ensure That Its Currency Billing Rates Include All Costs
and That Excess Working Capital Is Deposited in the General Fund
(OIG-06-010)
Appendix 3
Management Response




BILL AND COIN MANUFACTURING: The Bureau of Engraving and                   Page 28
Printing Should Ensure That Its Currency Billing Rates Include All Costs
and That Excess Working Capital Is Deposited in the General Fund
(OIG-06-010)
Appendix 3
Management Response




BILL AND COIN MANUFACTURING: The Bureau of Engraving and                   Page 29
Printing Should Ensure That Its Currency Billing Rates Include All Costs
and That Excess Working Capital Is Deposited in the General Fund
(OIG-06-010)
Appendix 3
Management Response




BILL AND COIN MANUFACTURING: The Bureau of Engraving and                   Page 30
Printing Should Ensure That Its Currency Billing Rates Include All Costs
and That Excess Working Capital Is Deposited in the General Fund
(OIG-06-010)
Appendix 4
Report Distribution




Department of the Treasury

Office of Strategic Planning and Performance Management
Office of Accounting and Internal Control

Bureau of Engraving and Printing

Director
Associate Director (Chief Financial Officer)

Office of Management and Budget

OIG Budget Examiner




BILL AND COIN MANUFACTURING: The Bureau of Engraving and                   Page 31
Printing Should Ensure That Its Currency Billing Rates Include All Costs
and That Excess Working Capital Is Deposited in the General Fund
(OIG-06-010)
